IN THE
SUPREME COURT OF THE UNITED STATES

IN RE RILEY,
Petitioner,
v.

ON PETITION FOR A WRIT OF MANDAMUS/PROHIBITION

FILED
MAR 0 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

PETITIONER'S VERIFIED PETITION FOR A WRIT OF
MANDAMUS/PROHIBITION

Barbara J. Riley
Pro Se, Petitioner
Post Office Box 7313
Jacksonville, Florida 32238-0313
Phone: (904) 316-3698
Fee Paid, Non PLRA

March 3, 2021

•
STATEMENT OF QUESTIONS PRESENTED

Is it constitutional for officers of the courts to be creating, selling and
buying facially null and void judge's personal orders entered/issued without
jurisdiction daily nationwide for 231 years last and ongoing? U.S. District
Court Clerk's Administrative Order 440 Summons issued in a civil action.

Is it constitutional for officers of the court to play their own revised legal
games in courts and out of courts with their own newly created judge's
personal rules/rulings daily nationwide for 231 years last and ongoing? U.S.
v. Throckmorton; Norton v. Shelby County.

Is it constitutional for officers of the courts and armed-law enforcement
officers to put badges and incidents of slavery back on black people and their
children and families daily without jurisdiction nationwide for over nine
generations and ongoing? U.S. Constitution 13th Amendment.

Is it constitutional for officers of the courts and armed-law enforcement
officers to overturn or to quash dearly established equal rights of black
people and their children and families in courts and out of courts without
jurisdiction daily nationwide for over nine generations and ongoing? Miranda
v. Arizona

Table of Contents
Statement of Questions Presented
Table of Contents
iii

Table of Authorities
Parties List
Corporate Disclosure Statement
Statement of Jurisdiction

1

Statement of the Case

2

Prayer; Relief Sought

18

Verification of Petitioner

19

ii

Table of Authorities
*See, Pps. 33-37 of Petitioner's Mandamus/Prohibition Writ Appendix for
Constitution provisions and Statutes verbatim
U.S. Constitution, Amendments
First

4, 5, 15, 18

Fifth

4, 5, 15

Seventh

4, 5, 9, 15

Thirteenth

i, 4, 5, 14

Fourteenth

4, 5, 15
Florida Constitution, Article I

Section 2

4, 5, 9, 15

Section 5

4, 5, 15

Section 9

4, 5, 9, 15

Section 21

4, 5, 15, 19

Section 22

4, 5, 9, 15, 19
Statutes
5

Judiciary Act of 1789

5, 13

28 U.S.C. § 545
28 U.S.C. § 1346(b)

5

28 U.S.C. § 1651(a)

1
5, 16

28 U.S.C. § 2674

5, 11

28 U.S.C/ § 2675

5, 12, 19

28 U.S.C. § 2677

iii

•
Table of Authorities (cont'd)
Statutes (cont'd)
42 U.S.C. § 1981

15

42 U.S.C. § 1981

15

42 U.S.C. § 1982

5, 15

42 U.S.C. § 1983

5, 15

42 U.S.C. § 1985(3)

5, 15
U.S. Supreme Court Rulings
5, 10

Felder v. Casey, 487 U.S. 131 ( 1988)
Marbury v. Madison, 5 U.S. 137 (1803)
Miranda v. Arizona, 384 U.S. 486 (1966)
Norton v. Shelby County, 118 U.S. 425 (1886)
Owen v. City of Independence, 445 U.S. 622 (1980)

4, 5, 6
i, 3, 5, 7
i, 4, 5, 13, 15, 17
5, 9, 15
5, 9

See v. Seattle, 387 U.S. 541 (1967)
U.S. v. Throckmorton, 98 U.S. 64 (1878)

i, 5, 9
9

U.S. v. Will, 449 U.S. 200, 216 (1980)
United States v. Kis, 455 U.S. 1018 (1982)

5, 9

U.S. Supreme Court Rules
Rule 20

1

Rule 29.4(a)

1

*See, Pps. 33-37 of Petitioner's Mandamus/Prohibition Writ Appendix for
Constitution provisions and Statutes verbatim

iv

PARTIES LIST AND CORPORATE DISCLOSURE STATEMENT
PARTIES LIST
Barbara J. Riley, Petitioner, pro se, non-lawyer, pauper, innocent black
adult disabled senior citizen of the United States and of the State of Florida,
residing in Jacksonville, Duval County, Florida

United States of America, Defendant In-Default who imposes badges and
incidents of slavery upon black people amd their children and families in
federal courts and out of federal courts for over 9 generations.

CORPORATE DISCLOSURE STATEMENT
Pro Se Petitioner Barbara J. Riley has no financial interests in any corporate
entity and is not affiliated with any corporate entity due to pauperism.

•
VERIFIED PETITION FOR A WRIT OF MANDAMUS/PROHIBITION
WITH WRITTEN STATUTORY EVIDENCES IN SUPPORT
STATEMENT OF JURISDICTION
The Court has jurisdiction as a matter of discretion pursuant to 28 U.S.C.
§ 1651(a) and Rule 20 of the U.S. Supreme Court Rules, not as a matter of
right, but as a matter of emergency circumstances and as a matter of
exceptionally great public importance nationwide. This action is authorized
under 28 U.S.C. § 1651.
The date of the facially void ex parte district judge's Order sold and
unconstitutionally entered without subject-matter jurisdiction being on the
record of the case is April 27, 2020; and the date of the facially void ex parte
3 judge -panel's judgment sold and unconstitutionally affirming the district
judge's facially void sold ex parte judge's order is December 8, 2020. Both to
be Reviewed on this Petition for a Writ of Mandamus/Prohibition.
1 6On March", 2021, a copy of the Verified Petition for a Writ of Mandamus/
Prohibition was Mailed through the U.S.P.S. Priority Mail Express® to both
Todd B. Grandy, Esq. for Defendant In-Default UNITED STATES OF
AMERICA; and to the Solicitor General of the U. S., Department of Justice,
Washington, DC 20530-0001, pursuant to U.S. Supreme Court Rule 29.4(a).
Petitioner's Proof of Service, dated Marclr•8, 2021 is enclosed along with her
$300.00 U.S.P.S. Money Order payment and a Self-Addressed Stamped
Envelope.

1

STATEMENT OF THE CASE WITH WRITTEN EVIDENCES OF
NATIONAL TRAFFICKING IN VOID JUDGE'S ORDERS, VIOLATIONS OF
DUE PROCESS, PROCEDURE AND REMEDY PASSED BY U.S.
CONGRESS
See Petitioner's Mandamus/Prohibition Appendix for Evidences, Pps. 1 to 62.
INTRODUCTION
This case is about officers of the courts unconstitutionally creating,
drafting, selling and buying facially null and void judge's personal orders that
are signed, entered and issued without jurisdiction daily nationwide for 231
years last and ongoing, in clear violation of the federal and Florida State
Constitutions, Acts of U.S. Congress and Rulings of the Supreme Court of the
United States. See, U.S. District Court Clerk's Void Administrative Order
440 Summons issued in a civil action, page 38 of Petitioner's Mandamus/
Prohibition Writ Appendix. This unconstitutional practice must be stopped
immediately as matters of emergency and of great public importance.
This case is about officers of the courts who unconstitutionally play their
own revised legal games in federal courts and out of federal courts with their
own newly created judge's personal rules/rulings daily nationwide for 231
years last and ongoing, in dear violation of the federal and Florida State
Constitutions, Acts of U.S. Congress and Rulings of the Supreme Court of the
United States. These unconstitutional actions must be stopped immediately
as matters of legal emergency and of great public importance.
This case is about officers of the courts and armed-law enforcement
officers who unconstitutionally put badges and incidents of slavery back on

2

black people and their children and families daily nationwide without
jurisdiction for over nine generations and ongoing in clear violation of Florida
State and federal Constitutions, Acts of U.S. Congress and Rulings of the
Supreme Court of the United States. This unconstitutional usage must be
stopped immediately as matters of legal emergency and of great public
importance.
Finally:, this prima facie case is about officers of the courts and armedlaw enforcement officers who unconstitutionally overturn and quash the
clearly established equal rights of black people and their children and
families daily in courts and out of courts nationwide without jurisdiction for
over nine generations and ongoing in clear violation of the federal and State
Constitutions, Acts of U.S. Congress and Rulings of the Supreme Court of theUnited States. See, Miranda v. Arizona. These unconstitutional acts must
be stopped immediately as matters of legal emergency and of great public
importance.

3

National Badges and Incidents of Slavery; Usages of Void Order
Trafficking Daily Nationwide
For decades and decades, if not for multiple centuries now, since 1789
ongoing, officers of the courts hate black citizens and imposed badges and
incidents of Slavery and Involuntary Servitude back upon free black slaves
nationwide in clear violation of the First, Fifth, Seventh, Thirteenth and
Fourteenth Amendments to the U.S. Constitution; and Sections 2, 5, 9, 21 and
22 of Article I to the Florida State Constitution.
For decades and decades, if not for multiple centuries now, since 1789
ongoing, officers of the courts are Trafficking In facially void ex parte judge's
personal orders and void personal clerk's judgments sold nationwide to make
money as blocking black citizens right of access to the federal district and
appellate courts and right of just compensation for real estate property theft
through long-standing government abuses and unconstitutional usages. See
U.S. District Court Void Administrative Order 440. This Court holds that
"The Constitution is the Law of the Land, Any law that is repugnant to the
constitution is null and void of law." Marbury v. Madison. This Court has
long ruled "An unconstitutional act is not law; it confers no rights; it imposes
no duty; it affords no protection; - it creates no office; it is in legal
contemplation, as inoperative as though it had never been passed". Norton v.
Shelby County.
National and Local Fraud Upon the Courts, State and Federal
For decades and decades, if not for multiple centuries, since 1789 ongoing,

4

officers of the courts do not uphold or support the judicial machinery of
the inferior district courts and circuit courts nationwide. This is fraud upon
the courts, everyday, everywhere, nationwide, since 1789_
That for decades and decades, if not for multiple centuries, since 1789
ongoing, officers of the courts are unconstitutionally racial-hatred Trafficking
In facially void ex parte judge's rulings in dear violation of the First, Fifth,
Seventh, Thirteenth and Fourteenth Amendments to the U.S. Constitution,
of the Second, Fifth, Ninth, Twenty-first and Twenty-second Sections of
Article I of the Florida Constitution, of the Judiciary Act of 1789, of 28 U.S.C.
§§ 545, 1346(b), 2674, 2675 and 2677, of 42 U.S.C. §§ 1982, 1983 and 1985(3)
of the U.S. Congress, and in clear violation of Felder v. Casey, Marbury v.
Madison, Miranda v. Arizona, Norton v. Shelby County, Owen v. City of
Independence, See v. Seattle, U.S. v. Throckmorton and United States v. Kis
rulings of the Supreme Court. See, Pps. 33-37 of Petitioner's Mandamus/
Prohibition Writ App'x for applicable Constitution provisions and Statutes
verbatim. And every civil, criminal and arbitration case involving
widespread fraud nationwide should be immediately re-opened and justice
should be administered without any further void order trafficking schemes,
denials or delays. As there is no statute of limitations on fraud.
III. Nationwide Fraud Upon the Courts for Money by Officers of the
Courts and Armed-Law Enforcement Officers
All across the country, officers of the courts and their co-conspirators do not
follow the Federal Rules of Civil Procedure, Local Rules, Rules of criminal

5

•
procedure and Rules of evidence, all of which is governed by Constitutional
law. They all play their own revised legal games with their own newly
created rules nationwide and break all constitutional law for money;
$6,983_42 and their own personal individual agendas. The sad fact is that
officers of the courts and armed-law enforcement officers are violating their
oath of office every day, everywhere, all across the country.
Nationwide Fraud Upon the Courts' Racketeer-Businesses, State
and Federal
That based on personal experience, knowledge, investigations, information
and belief, for multiple centuries ongoing, there is a nationwide U.S. District
Courts' Facially Void Ex Parte Judge's Order Racketeer-Businesses that are
Aided and Abetted, Assisted and Advised nationwide by the Attorneys'
Racketeer-Businesses that are Approved and Affirmed nationwide by the
U.S. Courts of Appeals' Facially Void Judgment Affirm-Mandate with bill of
costs Racketeer Businesses.
The U.S. Supreme Court rules that "The Constitution of these United
States is the supreme law of the Land, Any law that is repugnant to the
Constitution is null and void of law". See, Marbury v. Madison.
Nationwide Serial Civil Rights Violators Trafficking In Void
Judge's Orders s for Money
For decades and decades ongoing, officers of the courts, judges, magistrates,
clerks of courts, deputy clerks of courts and armed-local and State law

6

enforcement officers, jointly and individually, are serial Civil Rights violators
that are racial-hatred Trafficking in facially void ex parte judge's orders and
clerk's judgments nationwide every day for money. That with a stroke of
their pen, they take away or cancel civil rights, constitutional rights,
statutory rights, Supreme Court rights, real and personal properties, money,
freedom and liberty and sometime end lives for money or for their own
personal individual agendas.
The U.S. Supreme Court rules that "Where rights secured by the
constitution are involved there can be no rule making or legislation which
would abrogate them". See, Miranda v. Arizona.
During all times mentioned here, officers of the courts and armed-law
enforcement officers, jointly and individually, are serial Civil Rights violators
depriving black people of constitutional rights, property rights, real estate
and personal property, liberty, freedom and even life through the usages of
void judge's orders
VI. Petitioner's Civil Action Claims Brought and Unconstitutionally
Dismissed Nationwide by Trafficking Officers of the Courts
Petitioner had statutorily commenced 7 statutory civil action claims in the
U.S. District Courts or federal courts as follows. That were unconstitutionally
dismissed ex parte by a district judge where the judge lacked subject-matter
jurisdiction as they are serial Trafficking In facially void ex parte judge's
orders and clerk's judgments daily nationwide for money.
1. 13-cv-9171 (LAP), Riley v. Sunshine, et al, SDNY

7

14-cv-4482 (BMC), Riley v, City of New York, et al, EDNY
15-cv-5022 (BMC), Riley v. Rivers, et al, EDNY
3:16-cv-898 (MIVIII), Riley v. Donatelli, et al, MDFL
3:16-cv-961 (MIVIH), Riley v. Cardozo, et al, MDFL
18-cv-1270 (LKG), Riley v. U.S.A., USCFC, Washington, DC
3:19-cv-1433 (HES), Riley v. U.S.A, MDFL
For over 9 generations ongoing, disqualified officers of the courts and
armed-law enforcement officers, jointly and individually, pose an immediate
threat and real danger to the black population every where nationwide, every
day.
To date, Petitioner holds 7 facially void ex parte judge's orders, 6 void
ex parte clerk's judgments and 6 void ex parte judgments/mandates on
statutorily commenced statutory civil action claims founded upon Acts of
U.S. Congress or the U.S. Constitution. All cases involve Petitioner's secured
real estate properties, secured property rights and clearly established
constitutional rights. All of which are authorized and remedied by the U.S.
Congress. All were unconstitutionally dismissed through the judges and
clerks of courts usages of void judge's orders and void clerk's judgments
trafficking for $6,983.42. See, p. 39 of Mandamus/Prohibition Writ Appendix.
At all times mentioned here, the already disqualified judges never held
subject-matter jurisdiction over the void Rule 12 motion to dismiss in any of
the Cases that were fraudulently dismissed without a hearing or a secured

8

41

•

jury trial that were constitutionally preserved under Amendment 7 of the
U.S. Constitution and APlide I SECTIONS 2, 9 and 22 of the Florida
Constitution. Also, a sold NYC Queens Felony Arrest Warrant against Riley.
For decades and decades running, including 2013 through 2020,where
there is void orders trafficking nationwide, there always will be civil actions
dismissed with prejudiced and false convictions with imprisonment imposed
every where nationwide for money and or for their personal individual
agendas. We are a nation of serial Civil Rights violators.
If the shoe were on the other foot, we would be peeling judges, law clerks,
magistrates, clerks of courts, deputy clerks, state and federal prosecutors and
attorneys from ceilings every where nationwide every day
Where there is void judge's orders, void clerk's judgments and void panel's
mandates trafficking nationwide, there should be extraordinary writs every
where nationwide along with grand jury indictments every where nationwide.
The courts, including this Court, have repeatedly ruled that judges have
no immunity for their criminal acts. The Supreme Court has ruled that
"Officers of the court have no immunity from liability when violating a
clearly established right for they are deemed to know the law". See, Owen v.
City of Independence. This Court has ruled that "When
a judge acts where he or she does not have jurisdiction to act, the judge is
engaged in an act or acts of treason". See, U.S. v. Will.

9

•
For decades and decades, if not multiple centuries, officers of the United
States District Courts are, by definition, serial civil rights violators
deliberately on purpose engaged in long-running ongoing criminal practices
of Trafficking In facially void ex parte judge's orders for money in the officers
of the courts pockets. This is unconstitutional and makes the district courts
immediately inaccessible to black people everywhere nationwide every day.
That is after collecting their $400.00 and $505.00 prepaid court filing fees
payment for the bank accounts of the federal government.
The Court has ruled that "Congress meant to provide individuals
immediate access to the courts". See, Felder v. Casey.
VII. Officers of the Courts Usage of Void Standing Administrative
Order 440, Summons Issued in a Civil Action, Advertising their
Highly-Lucrative Void Orders Trafficking Racketeer Business
The officers of the courts are serial civil rights violators that are Trafficking
everyday all day long. See, U.S.D.C. facially void Administrative Order 440 at
R. 38 of Mandamus/Prohibition Writ App'x which, in pertinent parts, reads:
"A lawsuit has been filed against you.
Within 21 days after service of this summons on you (not counting the day
you received it) — or 60 days if you are the United States or a United States
agency, or an officer or employee of the United States described in Fed. R.
Civ.P. 12(a)(2) or (3) — you must serve on the plaintiff an answer to the
attached complaint or a motion under Rule 12 of the Federal Rules of
Civil Procedure.
The answer or motion must be served on the plaintiff or plaintiffs attorney,
whose name and address are:
If you fail to respond, judgment by default will be entered against you for the
relief demanded in the complaint. You must also file your answer or motion
with the court."

By law judges do not have self-execution powers. Judges acquire their
jurisdiction from Pleadings. A Rule 12 motion is not a pleading. So, no court

10

•
automatically has subject-matter jurisdiction over a Rule 12 motion Filed
without attorneys FIRST filing (1) a Notice of Appearance, (2) a Certificate of
Interested Persons and Corporate Disclosure Statement, (3) a Certificate of
Admissions and (4) an Answer or pleading.
But, for $6,983.42 MSRP, Judges are unconstitutionally dismissing cases
based upon any Rule 12 motions or not, by a party or a non party. By
definition of law the officers of the court are dangerous and violent serial
Civil Rights violators that are Racial-Hatred Trafficking In facially void ex
parte judge's rulings for $6,983.42 or amounts less than $10,000.00 to avoid
Dept. of the Treasury, Internal Revenue Service. See, Page 138 of 148 of Doc.
2181 of Case 3:09-cv-10000-WGY-JBT, Mandamus/Prohibition App'x p. 39.
In any case, follow the Fraud upon the courts and follow the Money.
VIII. Statutory Claims and Statutory Evidences Under 28 U.S.C. §
2675(a). See, Pps. 40 to 60 of Mandamus/Prohibition Writ Appendix
Before bringing the statutory 5-claim civil action complaint in the
U.S.D.C., Middle District of Florida on December 13, 2019, Petitioner had
presented her 18 Claims against 12 racketeer-employees of the federal
Government in Writing and Sent by I.S.P.S. Certified Mail® to four
appropriate federal agencies under 28 U.S.C. § 2675(a) that were completely
ignored or disregarded by said federal agencies. See 18 Notices of Claim at
Pps. 40 to 60 of Petitioner's Mandamus/Prohibition Writ Appendix.
On December 26, 2019, The District Deputy Clerk Issued two Summonses

11

to Jacksonville District U.S. Attorney and the United States Attorney
General. See, Docket Sheets, DE 3, p. 61 of Petitioner's Mandamus/
Prohibition Writ Appendix.
On December 31, 2019 Jacksonville District U.S. Attorney served with
process with an Answer due March 2, 2020. See, Docket Sheets DE 5, p.61
of Petitioner's Mandamus/Prohibition Writ Appendix.
On January 6, 2020, U.S. Attorney General served with process. See,
Docket Sheets, DE 6, Pps. 61 and 62 of Petitioner's Mandamus/Prohibition
Writ Appendix.
On March 2, 2020, Jacksonville District U.S. Attorney Maria C. Lopez
failed or refused to File an Answer or pleading to the statutory civil action
claim Case 3:19-cv-1433-HES-JBT. See, Docket Sheets, Pps. 61 and 62 of
Petitioner's Mandamus/Prohibition Writ Appendix. Under the law, on March
3, 2020 Government defendant is In Default.
The Attorney General of the United States, or his designee, failed or
refused to arbitrate or settle any of Petitioner's 5-claims as dearly provided
under 28 U.S.C. § 2677. Compromise., after commencement in the district
court. Because of officers of the courts racial-hatred Trafficking In facially
null and void ex parte judge's personal rulings daily nationwide.
On March 2, 2020, non-party, Tampa District Assistant U.S. Attorney
Lacy IL Harwell Jr., without license, power or authority in the Jacksonville
District, and without a Notice of appearance, Certificate of interested persons

12

and Corporate disclosure statement, Certificate of admissions and an Answer
unconstitutionally filed his personal jurisdictionally-defective 56-page (28page, 2-sided, mailed to petitioner) Rule 12 Motion to dismiss with prejudice
for immunity as to all defendants. This occurred without leave of district
court. See, Docket Sheets DE 9, Pps. 1-16 of Petitioner's Mandamus/
Prohibition Writ Appendix. Tampa District assistant U.S. attorney Harwell
Jr. is not a resident of the Duval County, Jacksonville District. See, 28
U.S.C. § 545. Residency., P. 35 of Mandamus/Prohibition Writ Appendix.
On March 2, 2020, where officers of the courts are serial Civil Rights
violators that are racial-hatred Trafficking In facially void ex parte judge's
rulings for money, an unknown district deputy clerk processed non party's
Doc. 9 for unconstitutional consideration and determination by senior U.S.
District Judge Harvey E. Schlesinger. See, Docket Sheets DE 9, Pps. 1-16 of
Petitioner's Mandamus/Prohibition Writ Appendix (without their 40 pages of
irrelevant exhibits).
This Court has long ruled that "An unconstitutional act is not law; it
confers no rights; it imposes no duty; it affords no protection; - it creates no
office; it is in legal contemplation, as inoperative as though it had never been
passed". See, Norton v. Shelby County.
On March 20, 2020, Petitioner filed a timely Opposition with citations of
Authorities to non-party's TAUSA's Harwell Jr. jurisdictionally-defective
DE 9. This was a big waste of labor, time and money because it was not

13

considered or even read by the district judge or his law clerks. It was
completely disregarded for that $6,983.42. See, Docket Sheets DE 12.
Amendment XIII.
Petitioner does not have $6,983.42 to pay a district court for the issuance
of a valid ex parte order/judgment against default defendant United States.
Sounding in acts of treason, extortion and the interference with interstate
commerce, just to name a few more federal crimes.
On April 28, 2020, just as predicted, already Disqualified U.S. District Judge
Schlesinger, without subject-matter jurisdiction over non-party's TAUSA
Harwell Jr. jurisdictionally-defective 56-Page Rule 12 motion to dismiss for
immunity, acted in his personal serial Civil Rights violator capacity, and with
Government-defendant being in default, sold and issued his personal facially
void ex parte judge's order of dismissal for $6,983.42. See, Docket Sheet
DE 13, Pps. 17 to 25 of Petitioner's Mandamus/Prohibition Writ Appendix.
Disqualified District Judge Schlesinger, without subject matter
jurisdiction, with the stroke of a pen, single-handedly unconstitutionally
bring unclean-hands, liable-defendant government out of default and
granted them immunity immediately after payment of processing fee of
$6,983.42 MSRP of course. No court has power, authority or jurisdiction to
bring a default defendant out of default based on a non-party's personal
motion to dismiss for immunity.
On May 26, 2020, Petitioner filed a timely Notice of appeal along with her

14

$505.00 docketing fee prepaid to the district clerk for the government. See,
Docket Sheet, p. 62 of Petitioner's Mandamus/Prohibition Writ Appendix.
On May 27, 2020, Appeal Opened, and district court is closed to Petitioner,
once again.
On December 8, 2020, as predicted, Judge Schlesinger's DE 9 facially void
ex parte Judge's Order sold for $6,983.42 was Affirmed and Petitioner's
statutory civil action claim of $25,538, 375.00 in damages closed as the courts
take Petitioner's secured personal civil action claim property without a trial
by jury or constitutional due process. See, 42 U.S.C. §§ 1981, 1982, 1983,
1985(3); Amendments 1, 5, 7 and 14 of the U.S. Constitution, Article I
Sections 2, 5, 9, 21 and 22 of the Florida State Constitution. See, Norton v.
Shelby County.
This Court has ruled that "The innocent individual who is harmed by an
abuse of governmental authority is assured that he will be compensated for
his injury." See, Owen v. City of Independence.
VIII. In Closing
For over 9 generations, since 1789, including 2013 through 2020, officers
of the courts have engaged in unconstitutional acts of Treason, the
Interference with interstate commerce, Extortion, Fraud, Conspiracy,
Racketeering, Fraud upon the courts by officers of the courts and armed-law
enforcement officers, State and federal, through the usage of facially Void ex
parte Judge's Personal Orders Trafficking. No judge, law clerk, magistrate,

15

clerk of court, deputy clerk of court or armed-law enforcement officer has
immunity to engage such acts or criminal practices. By constitutional law,
Petitioner must be compensated for inherited real estate property and
personal civil action claim property thefts.
At all times, innocent Petitioner has clearly established statutory rights,
clearly established constitutional rights, clearly established U.S. Supreme
Court rights and clearly established rights secured by U.S. Congress and
she must be compensated for her losses of 2 inherited real estate properties,
titles, and personal properties stolen by racketeer-employees of the federal
government. In fact, an Act of Congress provides default governmentdefendant is liable in the same manner and to the same extent as a private
individual under like circumstances. See, 28 U.S.C. § 2674.
Since 2013, innocent Petitioner is harmed in her person, and suffered losses
of 2 real estate income properties, 6 monthly rental incomes, and 6 personal
civil action properties caused by racketeer-employees of the government
and through usages of void judge's personal orders trafficking nationwide.
The mental racketeer-criminal employees of the government think they
are supreme beings and above the law and their bogus right of an immunity
defense is supreme over innocent black individuals' clearly established
State and federal constitutional rights, dearly established statutory rights
and clearly established rights given by the U.S. Supreme Court and the U.S.
Congress.

16

The mental racketeer-criminal employees of the court of appeals think
that they are above the law also and the United States cannot be sued for
their violations of clearly established rights or government abuses. A threeJudge Panel unconstitutionally makes sold facially void ex parte judge's
personal orders "valid" and unconstitutionally affirms them in their personal
capacity nationwide to make money illegally. See, 3-Judge Panel Void
Judgment of December 8, 2020, Pps. 26 to 32 of Petitioner's
Mandamus/Prohibition Writ Appendix. See, Norton v. Shelby County.
These lifelong employed-criminal serial Civil Rights violators, killers and
thieves are every where and any where and nationwide too. Petitioner has
never met or known a judge that does not Traffi.ck In Voids for money, engage
in acts of treason, deprive black individuals of clearly established rights,
and real estate and personal properties. For over 9 generations and ongoing,
officers of the courts and armed-law enforcement officers enjoy promoting
pauperism, homelessness, joblessness, jail, recklessness, homicide and other
crimes against blacks, everywhere and any where, nationwide, every day.....
This is a legal emergency and a matter of great public importance where
nationwide black individuals in each and every jurisdiction hold badges and
incidents of slavery and are being murdered and robbed through
unconstitutional usages. Those usages must be stopped as soon as and as
quickly as possible before additional wrongful deaths and properly thefts
nationwide.

17

WHEREFORE, Petitioner, respectfully, prays that this Court enters an
Order:
A. Granting Petitioner's Petition.
B. Enjoining respondent as follows:
To refrain from putting badges and incidents of slavery upon free black
citizens nationwide every day..
To refrain from usage of Trafficking In facially void ex parte judge's
personal orders and clerk's personal judgments online nationwide for money.
To refrain from the usages of void judge's personal orders of dismissal
and void clerk's personal judgments of dismissals to not compensate innocent
individuals for injury or theft of their inherited real estate and personal
properties.
To refrain from protecting officers of the courts from civil liability for
their unconstitutional acts, abuses, usages, and property thefts nationwide.
To refrain from usages of simulated online judicial processes to bring
civilly liable serial civil rights violators, killers and thieves out of default.
To refrain from making sold void ex parte judge's personal orders valid
online and affirming them online on appeals to make money.
To refrain from considering and determining any other civil, criminal
or arbitration cases online while Petitioner's case remains dosed.. No. 3:19CV-1433 (FLMD, Jacksonville District).
C. Opening the federal courts to free black citizens as is provided by the First

18

Amendment and Section 21 of Article I of the Florida Constitution.
Remanding Petitioner's statutorily commenced statutory civil action 5Count Claim No. 3:19-CV-1433 (FLMD, Jacksonville District) to be arbitrated
and settled by the U.S. Attorney General himself or his designee pursuant to
28 U.S. C. § 2677.
Issue a declaratory judgment that the usages of respondent as set forth
above are violative of the rights of black people nationwide as secured by the
U.S. Constitution, Florida Constitution, Acts of U.S. Congress and Rulings of
the Supreme Court of the United States.
Granting Petitioner such alternative and additional relief as appears to
the Court to be equitable and just.
8,
Dated: March 3, 2021
Jacksonville, Florida

ubmitted,

at
iM
..
' ey, Petitioner
P . Box 73 3
Jacksonville, FL 32238
Phone: 904.316.3698
Non PIRA - Fee Paid

Verification of Petitioner
I, Barbara Riley, declare, under penalty of perjury the foregoing is true
and correct. Executed on the 3rd day of March 20 1. 28 U.S.C. § 1746.
t411
10611
ill
7. . Tara

19

